AUDIT OF THE INFORMATION TECHNOLOGY
    SOLUTIONS SHOP (ITSS) SYSTEM
  PERFORMANCE AND FUNCTIONALITY
 REPORT NUMBER A100123-2/Q/F/P11006

            May 18, 2011




                 2
Date:         May 18, 2011

To:           Steven J. Kempf
              Commissioner, Federal Acquisition Service (Q)

Reply to      Carolyn Presley-Doss
Attn of:      Deputy Assistant Inspector General for Finance and Information
              Technology Audits (JA-F)

Subject:      Audit of the Information Technology Solutions Shop (ITSS) System
              Performance and Functionality, Report Number A100123-2/Q/F/P11006

This report presents the results of our assessment of the performance and functionality
of the Information Technology Solution Shop (ITSS) system. The report discusses
opportunities for the Federal Acquisition Service’s (FAS) Assisted Acquisition Service
(AAS) to better meet user needs, and improve functional and operational effectiveness.
Appendix A describes the audit objective, scope, and methodology.


                                    RESULTS OF AUDIT

ITSS was developed in 1997 as an on-line, web-based purchase order system to
facilitate the development of delivery and purchase orders within the former Federal
Technology Service 1 (FTS) programs. Our audit disclosed missing functionality and
needed enhancements to ITSS. In particular, the ITSS system lacks a fully-automated
and convenient means for processing procurements from pre-solicitation to close out.
In addition, ITSS does not capture procurement information in a format that can be
easily searched. As a result, users are not able to leverage work performed on prior
procurements. Lastly, processes were not standardized across regions.

GSA attempted to replace ITSS through the award of a series of task orders issued
between 2002 and 2005. These task orders were for the design, development, and
technical support of a single, integrated system. This replacement system was known
as FTS’ Third Generation System and later as GSA Preferred. However, FAS was
unable to implement the replacement system and consequently returned to ITSS.

The AAS needs to ensure that ITSS or a replacement system is a more comprehensive
procurement system with standardized agency-wide procurement processes. In
addition, users need updated and uniform training.

1
 In 2005, GSA reorganized the Federal Supply Service and the Federal Technology Service into the
Federal Acquisition Service.


                                               1
                                      RECOMMENDATIONS

The Commissioner, Federal Acquisition Service should ensure that:

    1. A fully-functional procurement system is designed for the Assisted
       Acquisition Service that incorporates a standardized procurement process.
       Specifically, the Assisted Acquisition Service needs to develop short-term
       actionable goals to address missing functionalities within ITSS and work
       toward a long-term solution for a procurement system.

    2. Standardized training is developed for ITSS system users.


                                  EXPLANATION OF FINDINGS

Develop a Comprehensive Procurement System and Standardize Processes
Agency-wide

ITSS lacks a fully-automated means for processing procurements from pre-solicitation
to close out. Specifically, ITSS does not provide for acquisition planning, contract
writing, custom report generation, and comprehensive search capabilities.

Although the Acquisition Planning Wizard is a widely-used tool throughout AAS, the
acquisition planning functionality does not exist within ITSS. To compensate for the
missing functionality, users have developed applications and tools to facilitate the
workflow that ITSS does not provide. In addition, users often rely on manual processes
and external applications that vary by region. For example, the National Capital Region
developed a dashboard application to create tracking numbers, and to support
management decisions and reporting. The Southeast Region developed a Microsoft
Access database, Workflow application, and an eApproval application to perform similar
functions.

Furthermore, some of the functionality currently provided within ITSS needs
enhancement. The eBuy 2 function does not allow a user to revise documents and
retain the original in the system. As a result, users may complete the eBuy process
outside of ITSS and import the data after the process is finished. Enhancements are
also needed to allow users to generate customized reports to assist in management
decisions.

The use of ITSS is not standardized across the regions. Consequently, system users
create unique numbering systems, formats for procurement documents, and document
2
  eBuy, a component of GSA Advantage!®, is an online Request for Quotation tool. eBuy is designed to
facilitate the request for submission of quotations for a wide range of commercial supplies (products) and
services under GSA schedules and technology contracts.

                                                     2
titles. As a result, search capabilities are limited because users need to know the
precise naming conventions used when the task order was created. Finally, paper
documents are still used and there is no policy requiring users to record the entire
procurement process in ITSS. These conditions further impede search capabilities.

Office of Management and Budget (OMB) Circular A-130 specifies that agencies must
develop information systems that facilitate interoperability, application portability, and
scalability of electronic applications across networks of heterogeneous hardware,
software, and telecommunications platforms. To perform effective and efficient assisted
acquisitions, FAS users need a system that incorporates: solicitation award and
administration functions, document creation, acquisition planning, procurement
requirements defined in standardized and searchable terms, and procurement status
information. OMB Circular A-130 further specifies that agencies incorporate records
management and archival functions into the design, development, and implementation
of information systems. Agencies need to ensure the ability to access records
regardless of form or medium. A fully-automated search engine coupled with
comprehensive acquisition data using standard terminology is essential to providing a
quality acquisition system with needed functionality and efficiency.

Comprehensive Training for All Users

Although user training has been provided since the inception of ITSS, additional training
is needed. OMB Circular A-123 specifies an element of the control environment should
be a commitment to competency. OMB Circular A-130 specifies that agencies train
personnel in skills appropriate to management of information. The development of
regional processes is due to functional gaps in the system or users’ lack of awareness
of existing functionality. Training will promote standardization and familiarize users with
system capabilities.


                                     CONCLUSION

The AAS needs to focus on short and long-term goals. The short-term goals should
address some of the missing functionalities within ITSS as well as training ITSS users
on new and existing processes and system capabilities. Long term, the AAS in
conjunction with FAS, needs to design and implement a procurement system for the
AAS. This system should incorporate a standardized procurement process for all users.
In addition, FAS needs to ensure that ITSS users are properly trained in the capabilities
and functions of the replacement system.


                             MANAGEMENT COMMENTS

The Commissioner, Federal Acquisition Service, generally concurred with the findings
and recommendations outlined in this report. FAS management agreed that AAS
should develop short-term actionable goals to further refine ITSS functionalities.

                                             3
5
                   AUDIT OF THE INFORMATION TECHNOLOGY
                       SOLUTIONS SHOP (ITSS) SYSTEM
                     PERFORMANCE AND FUNCTIONALITY
                    REPORT NUMBER A100123-2/Q/F/P11006

                                    APPENDIX A

                    OBJECTIVE, SCOPE, AND METHODOLOGY

Objective, Scope, and Methodology

The objective of our audit was to assess the performance and functionality of the ITSS
in meeting system users’ needs. To accomplish the objective we:

•   Surveyed users in Region 1 (New England Region), Region 3 (Mid Atlantic Region),
    Region 4 (Southeast Region), Region 5 (Great Lakes Region), Region 7 (Greater
    Southwest Region), Region 8 (Rocky Mountain Region), and NCR (National Capital
    Region) in regards to their needs, uses, training, and satisfaction with ITSS;

•   Surveyed the Regional Integrated Project Team members and the Regional
    Acquisition Operations Directors in regards to their needs, uses, training, and
    satisfaction with ITSS;

•   Met with program officials including: the ITSS program director, GSA FAS Chief
    Technology Officer, and the GSA Deputy Counsel to discuss various aspects of
    ITSS including training, procurement functions, user satisfaction, and
    enhancements;

•   Used read-only system access to navigate the system;

•   Reviewed procurement requirements development, solicitation, offer, award,
    administration, and related procedures employed in the system acquisition process;
    and

•   Reviewed system costs.

The audit relied on OMB Circular A-130 Appendix III – Security of Federal Automated
Information Resources, and OMB Circular A-123 Management’s Responsibility for
Internal Control. The system assessment was conducted between March and
December 2010. Audit work addressed by this report was conducted in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. The
audit evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. The scope of our audit did not include a detailed
analysis of the data within ITSS or the accuracy of that data. Our audit scope also did
                                           A-1
not include a review of the contractual practices used in procuring commodities and
services or the overall acquisition process.




                                         A-2
AUDIT OF THE INFORMATION TECHNOLOGY
    SOLUTIONS SHOP (ITSS) SYSTEM
  PERFORMANCE AND FUNCTIONALITY
 REPORT NUMBER A100123-2/Q/F/P11006

            APPENDIX B

      MANAGEMENT COMMENTS




                 B-1
B-2
B-3
                          AUDIT OF THE INFORMATION TECHNOLOGY
                              SOLUTIONS SHOP (ITSS) SYSTEM
                            PERFORMANCE AND FUNCTIONALITY
                           REPORT NUMBER A100123-2/Q/F/P11006

                                                  APPENDIX C

                                          REPORT DISTRIBUTION



                                                                                                            Copies*

Commissioner, Federal Acquisition Service (Q) ........................................................... 3

Acting Assistant Commissioner for Assisted Acquisition Service (QF) ......................... 1

Director, Contract Administration (Q10J) ...................................................................... 1

FAS Audit Liaison (QBOB) ........................................................................................... 1

Director, Internal Control and Audit Division (BEI) ....................................................... 1

Assistant Inspector General for Auditing (JA and JAO) ................................................ 2

Deputy Assistant Inspector General for Acquisition Audits (JA-A) ............................... 1

Director, Administration and Data System Staff (JAS) ................................................. 1

Assistant Inspector General for Investigations (JI) ....................................................... 1


*Provided Electronically




                                                           C-1
